    SIGAR                                                    Special Inspector General for
                                                              Afghanistan Reconstruction




                                                                         SIGAR Inspection 13-9



     Sheberghan Teacher Training Facility: U.S. Army Corps of
     Engineers Paid Contractors and Released Them from
     Contractual Obligations before Construction Was Completed
     and without Resolving Serious Health and Safety Hazards




                                                                                      JULY
                                                                                    2013

SIGAR Inspection 13-9/Sheberghan Teacher Training Facility
 SIGAR
                                                      July 2013
                                                      Sheberghan Teacher Training Facility: U.S. Army Corps of Engineers Paid Contractors
                                                      and Released Them from Contractual Obligations before Construction Was Completed
                                                      and without Resolving Serious Health and Safety Hazards

                                                      SIGAR INSPECTION 13-9
 Special Inspector General for
 Afghanistan Reconstruction                           WHAT SIGAR FOUND
                                                      The Sheberghan teacher training facility remains incomplete 4 years after the start of
 WHAT SIGAR REVIEWED
                                                      construction. Water, sewage, and electrical systems remain unfinished and the lack of
 In May 2008, the U.S. Agency for International       electricity hindered SIGAR’s ability to test lighting, water, heating, and other systems.
 Development (USAID) and the U.S. Army Corps          The facility’s electrical wiring does not meet the U.S. National Electrical Code, as the
 of Engineers (USACE) agreed to construct             contract required, and an improper entry, known as a “tap,” into the electrical system
 education facilities in Afghanistan. In              exposes occupants to potential electrocution and fire hazards. Also, the facility’s water
 February 2009, USACE-Afghanistan Engineer            well may have been placed too closely to its sewage system, raising potential health
 District-North (USACE-TAN) awarded Mercury           issues for the building’s occupants.
 Development, an Iraqi company, a $2.9
                                                      USACE-TAN’s contractor, Mercury Development, abandoned the project in late 2011.
 million contract to build three teacher training
                                                      Despite the contractor’s failure to complete construction and resolve health and safety
 facilities, one of which was to be located in
                                                      issues, USACE-TAN closed out the contract and released Mercury from further
 Sheberghan in Jawzjan province. Originally
                                                      contractual liability. USACE-TAN officials were unable to explain this decision because
 planned to be completed in January 2010,
                                                      they were not the responsible officials in Afghanistan at that time. A second contractor,
 the contract was subsequently extended to
                                                      Zafarkhaliq Construction Company, also failed to complete construction at Sheberghan.
 June 2011 and its value increased to $3.4
                                                      SIGAR was unable to determine why, but as it did with the first contractor, USACE-TAN
 million.
                                                      released Zafarkhaliq from further contractual liability. This inspection report identifies a
 This report assesses (1) whether construction        disturbing trend on which SIGAR has previously reported, in which USACE fails to hold
 was completed in accordance with contract            contractors accountable for completing the work they were paid to perform. USAID has
 requirements and applicable construction             terminated its agreement with USACE and now plans to seek a third contractor to finish
 standards and (2) whether the facilities are         the facility, including the faulty electrical wiring.
 being used as intended and maintained.
                                                      Despite construction being incomplete and despite health and safety hazards at the
 SIGAR conducted its work in Kabul,
                                                      facility and despite being told by USAID not to occupy the site, Afghans are using it. The
 Afghanistan; the USACE-TAN Resident Office
                                                      U.S. government is still responsible for operation and maintenance because USAID has
 at Camp Spann, near Mazar-e-Sharif; and in
                                                      not transferred the facility to the Afghan government. Further, while the Afghans
 Sheberghan from September 2012 through
                                                      occupying the facility want the U.S. government to fund the $50,000 per month fuel
 July 2013, in accordance with Quality
                                                      costs for the electrical generator, by agreement the Afghan government is responsible
 Standards for Inspection and Evaluation
                                                      for all operation and maintenance costs after it takes occupancy of the facility.
 published by the Council of the Inspectors
 General on Integrity and Efficiency.


WHAT SIGAR RECOMMENDS
SIGAR recommends that the Commanding General, USACE direct USACE-TAN to (1) determine, and report the results to SIGAR, on the reasons
why two contractors were released from their contractual obligations and liabilities despite poor performance, unfinished construction, and
electrical problems and determine appropriate actions, if any, against the contracting officer(s) responsible for making these decisions. The
report also recommends that the USAID Mission Director for Afghanistan (2) conduct a site inspection to determine whether sanitary sewer
lines were improperly placed in relation to the water well, posing a health risk to the faculty and students, (3) take appropriate measures to
minimize the health and safety risks arising from faculty and students’ current unauthorized use of the facility, (4) complete construction of the
Sheberghan teacher training facility and expedite its turnover to the Afghan government, and (5) provide adequate project oversight.

In commenting on a draft of this report, USACE agreed to review the circumstances surrounding the close-out of the Mercury and Zarfarkhaliq
contracts and report its results to SIGAR. SIGAR initially directed recommendations 2 and 3 to USACE. However, USACE no longer has the
authority to conduct work on the project or control the facility’s usage. As a result, SIGAR directed these recommendations to the USAID
Mission Director. In its comments, USAID concurred with recommendations 4 and 5. USAID also provided information on its efforts and plans to
award a contract to complete the project, provide oversight, and transfer the facility to the Afghan government.


       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
July 17, 2013
General Lloyd J. Austin III
Commander, U.S. Central Command
Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers, U.S. Army Corps of Engineers

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Ms. Sarah W. Wines
Acting Mission Director for Afghanistan, U.S. Agency for International Development
This report discusses SIGAR’s inspection results of the Sheberghan teacher training facility in Jawzjan province,
Afghanistan. The report includes a recommendation to the Commanding General, USACE, to direct the
Commander, USACE-Afghanistan Engineer District-North, to determine, and report the results to SIGAR within
90 days, (a) why its contractors, Mercury and Zafarkhaliq, were released from their contractual obligations
despite poor performance; (b) why contract close out files showed that Mercury and Zafarkhaliq completed all
work and all outstanding issues had been resolved despite unfinished construction and electrical problems
that remain to this day; (c) why USACE-TAN released Mercury from any outstanding claims, remediation, and
warranty items; and (d) identity the USACE contracting officer(s) involved in the decision to pay the contractors
and release them from all contractual liability. Based on the results of the investigation, SIGAR also
recommends that USACE determine whether disciplinary action would be appropriate against the contracting
officer(s) responsible for making the decision.
The report also includes four recommendations for the USAID Mission Director for Afghanistan to determine
whether the placement of the sanitary sewer lines poses a health risk to the faculty and students, take
appropriate measures to minimize the health and safety risks arising from Afghan faculty and students’ current
unauthorized use of the facility; complete construction of the Sheberghan teacher training facility and expedite
its turnover to the Afghan government; and provide adequate oversight to ensure that the facility is properly
completed before paying for contractor services.
In commenting on a draft of this report, USACE agreed to review the circumstances surrounding contract close-
outs and report its results to SIGAR. USACE also noted that it no longer had the authority to conduct work on
this project or control the facility’s usage. As a result, the recommendations concerning the sewer lines and
measures to minimize health and safety risks have been addressed to the USAID Mission Director. USAID, in
commenting on a draft of this report, concurred with recommendations 4 and 5. USAID provided information
on its efforts and plans to award a contract to complete the project, provide oversight, and complete the steps
necessary to formally transfer the facility to the Afghan government. USACE and USAID also provided technical
comments, which we incorporated as appropriate. USACE’s comments are reproduced in appendix III; USAID’s
comments are reproduced in appendix IV.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended, and the
Inspector General Act of 1978, as amended; and in accordance with the Quality Standards for Inspection and
Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS



Unfinished Construction Limited SIGAR’S Inspection and Raised Safety Concerns ............................................... 2

Sheberghan Facility Is Being Used in Unfinished Condition and Not Being Maintained ......................................... 5

Conclusion.................................................................................................................................................................... 6

Recommendations ...................................................................................................................................................... 6

Agency Comments ....................................................................................................................................................... 7

Appendix I - Scope and Methodology ......................................................................................................................... 9

Appendix II - Sheberghan Teacher Training Facility First and Second Floor Plans ................................................ 10

Appendix III - Comments from the U.S. Army Corps of Engineers ........................................................................... 11

Appendix IV - Comments from the U.S. Agency for International Development ..................................................... 17
Appendix V - Acknowledgements .............................................................................................................................. 21


TABLES

Table 1 - Key Events for Mercury Contract ................................................................................................................. 3
Table 2 - Key Events for Zafarkhaliq Contract ........................................................................................................... 4


FIGURES

Figure 1 - Sheberghan Teacher Training Facility Layout ......................................................................................... 10


PHOTOS

Photo 1 - One of Sheberghan’s Ten Classrooms ....................................................................................................... 1

Photo 2 - Laboratory with Electrical Tap Visible from the Junction Box and Wire Leading to Power Strip ............. 2

Photo 3 - Students Studying in an Unlit Classroom ................................................................................................... 5




ABBREVIATIONS

USACE                              U.S. Army Corps of Engineers

USACE-TAN                          U.S. Army Corps of Engineers, Afghanistan Engineer District-North

USAID                              U.S. Agency for International Development




SIGAR Inspection 13-8/Sheberghan Teacher Training Facility                                                                                                             Page i
In May 2008, the U.S. Agency for International Development (USAID) and the U.S. Army Corps of Engineers
(USACE) entered into a Participating Agency Program Agreement 1 in which USACE agreed to provide contract
administration, construction management, and related services for the design and construction of education
facilities at institutes of higher learning in Afghanistan. Specifically, USACE was to construct three teacher
training facilities: one in Sheberghan in Jawzjan province, one in Mazar-e-Sharif in Balkh province, and one in
Meymaneh in Faryab province. On February 7, 2009, USACE District-North (USACE-TAN) 2 awarded Mercury
Development (Mercury), an Iraqi company, a firm fixed-price contract (W917PM-09-C-0017), with an 11 month
                                                          period of performance, for $2.9 million to build all three
                                                          facilities no later than January 12, 2010. After nine
Photo 1 - One of Sheberghan’s Ten Classrooms              modifications, the contract’s value was increased to
                                                          $3.4 million and its period of performance was extended
                                                          to June 19, 2011. Each of the three teacher training
                                                          facilities was to consist of a two-story building with ten
                                                          classrooms, four laboratories, a library, and an
                                                          administration office (see photo 1 showing one of
                                                          Sheberghan’s ten classrooms).

                                                              For this inspection, we focused on the Sheberghan
                                                              teacher training facility. 3 Our inspection assessed
                                                              whether (1) construction was completed in accordance
                                                              with contract requirements and applicable construction
                                                              standards, and (2) the facilities were being used as
                                                              intended and maintained.
Source: SIGAR, November 28, 2012.                       We conducted our work in Kabul, Afghanistan; at the
                                                        USACE-TAN Resident Office at Camp Spann, near Mazar-
e-Sharif; and at the Sheberghan teacher training facility 4 from September 2012 through July 2013, in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.
Appendix I provides a more detailed discussion of our scope and methodology, and appendix II shows a layout
of the Sheberghan teacher training facility’s first and second floors.




1 A Participating Agency Program Agreement is a type of interagency agreement under FAA section 632(b) that USAID uses

when another federal agency is expected to implement a program with relatively little day-to-day oversight or direct
supervision by USAID and the other agency’s functions will be primarily performed at a place other than at USAID.
2 In 2009, the Afghanistan Engineer District was divided into two districts—North and South. The North District is referred to

as USACE-TAN.
3 We planned to inspect all three teacher training facilities. However, due to the turnover of security from coalition forces to

the Afghan government in Faryab province, we were precluded from inspecting the Meymaneh facility. We conducted an
inspection of the Mazar-e-Sharif facility in March 2013, which we will be separately reporting on at a later date.
4 During the exit conference, USAID informed us that they track the name of the facility as the “Jawzjan Faculty of Higher

Education." During the site visit and in discussions with USACE, the term “teacher training facilities” was used; other terms
used in contract and project documents included “education facilities,” “faculty of higher education facilities,” and “teacher
education facilities.” For consistency within this report, we use the term “Sheberghan teacher training facility.”



SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                               Page 1
UNFINISHED CONSTRUCTION LIMITED SIGAR’S INSPECTION AND RAISED
SAFETY CONCERNS

We conducted our inspection of the Sheberghan teacher training facility on November 28, 2012. The building
structure—interior and exterior walls, ceiling, floors, staircases, and roof—had been completed. In addition,
doors, windows, bathroom sinks, toilets, lighting fixtures, and heating and overhead fans were installed and
the electrical generator was on-site. However, despite construction beginning in February 2009, the facility was
still not complete. Specifically, the water, sewage, and electrical systems were unfinished. As recently as June
13, 2013, USAID officials informed us that the facility remains incomplete.
Our ability to properly inspect the building was hindered by the incomplete construction. Specifically, because
there was no water supply, we were unable to determine whether the sewage system was functional, even
though the construction of the bathrooms was complete. In addition, because there was no electricity, we
could not test the water pump and water system to determine whether the well was working properly. Similarly,
without electricity, we could not test the lighting, the heating, or the overhead fans. Furthermore, while the
electrical generator was in place, we noted that items from it were missing, and faculty representatives told us
that the batteries and control panel had been stolen.
USACE-TAN officials had identified electrical problems and reported them to Mercury as early as February
2011. For example, on February 8, 2011, USACE-TAN sent a written notification to Mercury expressing concern
that the electrical work was not being completed in conformance with the National Electrical Code as specified
in the contract. 5 During our site visit in November 2012, the USACE-TAN resident engineer told us that the
electrical wiring needed to be replaced. We followed up with the resident engineer in March 2013, and were
told that the faulty electrical wiring had still not been replaced. 6

During our inspection, we saw other issues that raise
concerns about the safety of the building. For example, we
                                                                   Photo 2 - Laboratory with Electrical Tap
observed a potentially dangerous situation in one laboratory
                                                                   Visible from the Junction Box and Wire
where an electrical line had been improperly tapped into an
                                                                   Leading to Power Strip
electric junction box to supply electricity to a power strip
sitting on one of the laboratory tables (see photo 2). The
USACE resident engineer stated that someone was probably
bringing a small electrical generator on-site to provide limited
electricity because the facility’s main electrical generator was
not functional. While we did not observe any portable
generators at the time of our site visit, we did note other
classrooms where small incandescent lights were tapped into
the electrical system. Generally, any unauthorized taps into an
electrical system raise safety concerns. However, in this
situation, the safety concerns are even more serious, given
Mercury’s failure to install wiring that conforms to the contract
specifications and the National Electrical Code. Consequently,
                                                                   Source: SIGAR, November 28, 2012.
occupants of the facility may be exposed to electrical shock
resulting from uncovered electrical connections and to fire
resulting from substandard wiring and overloaded electrical circuits.


5 The American National Standards Institute approved the National Electrical Code, which is the benchmark for safe

electrical design, installation, and inspection to protect people and property from electrical hazards. Mercury’s contract
required that all electrical design and installation work conform to the National Electrical Code.
6 We also conducted a briefing for USAID on March 18, 2013. At that time, USAID officials informed us that they were

aware of the electrical problems and were taking steps to address the problem with a new contract that USAID plans to
award to a local firm.



SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                             Page 2
Based on our review of project documentation, we also noted concerns with the quality of the water supply
from the well serving the facility. In May 2011, USACE notified Mercury that its site plans did not indicate the
well location in relation to the sewage system. USACE expressed concerns that the sewage lines could be
located too close to the water well, a violation of contract requirements that could affect the quality of the
water supply and health of the building’s faculty and students. 7 USACE further directed Mercury to submit a
proposed plan to protect the water well from potential sanitary sewer contamination. However, based on our
review, the project files did not provide any follow-up documentation on the issue. When we discussed this
issue with USACE-TAN officials in March 2013, they indicated that the issue had not yet been resolved.


First Contractor Did Not Complete the Sheberghan Project
Mercury walked away from the Sheberghan teacher
training facility project in late 2011, without
completing its work. 8 At the time that Mercury left,            Table 1 - Key Events for Mercury Contract
USACE-TAN estimated that construction was between                    Year                        Key Event
92 percent and 97 percent complete in total for the
three teacher training facilities in Sheberghan,                 February       USACE-TAN awards Mercury a $2.9 million
Mazar-e-Sharif, and Meymaneh. Most of the                        2009           contract, with an 11 month period of
remaining work to be accomplished involved                                      performance, to build three teacher facilities
Sheberghan. Our review of the project files shows                               in Afghanistan. Through 9 modifications the
that USACE-TAN had paid Mercury $3.1 million of the                             period of performance is extended another
$3.4 million contracted for the three facilities, before                        17 months and the contract amount
                                                                                increased to $3.4 million.
it walked away from the project. 9 Table 1 shows key
events involving the Mercury contract.                                          USACE-TAN sends first of 62 letters to
                                                                 June 2009
Through a series of 62 letters to Mercury, USACE-TAN                            Mercury regarding performance issues.
noted concerns with the contractor’s performance as
                                                            September- Mercury walked away from the project with
early as July 2009, or about 6 months after project
                                                            November      unfinished work; prior to that, USACE-TAN
construction began. 10 Our review of the letters                          had paid Mercury $3.1 million. USACE-Tan
                                                            2011
uncovered a multitude of issues related to the                            closes out the contract as complete, and
Sheberghan facility—as well as the other two sites—                       releases Mercury from further liability.
including a notice of unsatisfactory performance,
non-payment to subcontractors, reporting more               Source: SIGAR analysis of contract data.
workers than were actually on-site, unauthorized
purchase of window glass from Iran, and electrical issues such as those discussed earlier. 11 USACE-TAN also
cited Mercury for safety violations and failing to provide adequate oversight. In particular, USACE-TAN noted



7 Serial Letter C-0041, May 2, 2001, noted that the signed contract, section 2.3.4.5 “Sanitary Sewer,” required the

protection of potable water sources and strictly prohibited locating sanitary sewer and manholes in close proximity to water
wells.
8 USACE-TAN did not document the exact date that Mercury walked away from the Sheberghan project. However, it

estimated that Mercury left all three projects in the September-November 2011 timeframe.
9   Project files indicate that USACE-TAN paid Mercury the total contract value, less $191,853 in liquidated damages.
10 Serial Letter C-007, dated July 29, 2009, notes that Mercury did not adhere to contract requirements and did not

respond to USACE requests, and that little progress had been made 166 days into the 330 day contract. Serial Letter C-
009, dated August 8, 2009, provided the contractor with an Interim Unsatisfactory Notice, along with an attached
deficiency list.
11 Serial Letter C-0039, dated March 27, 2011, noted “significant issues with the single conductor wires in the cable trays,

panel board cabinets, and the feeder cable.” Other correspondence noted the use of single conductor wire that was a
smaller gauge than the contract required, installation of unapproved electrical panels, feeder cable installed in undersized
conduit and without a ground wire, cable placed in direct contact with the ground, the main electrical feed to the circuit



SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                              Page 3
that Mercury did not have enough qualified and trained safety managers to oversee on-site activities. In some
cases, safety violations resulted in USACE-TAN temporarily shutting down operations. For example, in July
2011, USACE-TAN stopped work at all three teacher training facility construction sites when one of three
minors illegally working at one of the sites cut himself with a saw. The quality assurance report concerning the
incident noted that no contract manager, quality control engineer, safety officer, or foreman was present at the
site on the day of the accident.
In spite of Mercury’s performance issues and abandonment of the project, USACE-TAN closed out the contract
and released Mercury from further liability on November 19, 2011. 12 The contract close-out documents stated
that construction was physically completed and that all outstanding issues had been resolved. The documents
further stated that the U.S. government had no outstanding claims against the contractor. Nevertheless, our
site visit and review of project documents clearly showed that construction remains incomplete and significant
issues remain. USACE-TAN officials we spoke with stated that they were not in Afghanistan at the time of
contract closeout and thus were unable to explain USACE-TAN’s decision to close out the contract and release
the contractor from liability. USACE’s decision for this project is similar to our finding in an October 2012
inspection report that USACE released its contractor from further contract obligations and paid the contractor
in full despite performance issues and construction defects. 13


Second Contractor Was Dismissed for Poor Performance
After Mercury’s departure, USACE contracted with a second company, Zafarkhaliq Construction Company
(Zafarkhaliq), an Afghan firm, to finish the work at Sheberghan. On January 23, 2012, USACE-TAN awarded
Zafarkhaliq a firm fixed-price contract (W5J9JE-12-C-0043)
valued at $153,000. Zafarkhaliq was responsible for              Table 2 - Key Events for Zafarkhaliq Contract
correcting the faulty electrical wiring and completing the
facility, including the water and sewage systems, within 30        2012                      Key Event
days of contract award. However, USACE-TAN documents
show that Zafarkhaliq had difficulties executing the             January      USACE-TAN awards a $153,000/30-
contract. For example, an August 2012 USACE-TAN project                       day contract to Zafarkhaliq.
status report stated that Zafarkhaliq had only completed
                                                                 August       USACE-TAN inspection finds electrical
about 65 percent of the required work 8 months after the                      problems have still not been
contract was awarded. The report also noted that the faulty                   corrected, and contract work has not
electrical wiring had still not been corrected. Because                       been completed.
Zafarkhaliq was not performing the work correctly, USACE
terminated the contract on December 1, 2012, after               December     USACE-TAN closes out the contract,
having paid the contractor over $130,000 and released it                      releasing Zafarkhaliq from further
from further contractual liability. Table 2 shows key events                  contract liability.
involving the Zafarkhaliq contract.
                                                                        Source: SIGAR analysis of contract data.

Contract for Third Contractor Is Pending
USACE-TAN planned to solicit a third contractor to complete the Sheberghan teacher training facility. However,
at a March 2013 briefing we provided USAID on the electrical issues we found during our site visit and the
performance problems we noted with Mercury and Zafarkhaliq, USAID officials told us they had decided to


panel installed with plumbing fixtures instead of electrical fixtures, plugs installed that were not standard Afghanistan 220
volt; and cable trays and wiring that did not meet contract or code specifications.
12 Serial Letter C-0062 “Final Payment with Release of Claims” states “all work associated with the above contract is

physically complete and all issues have been resolved.”
13 SIGAR Inspection 13-1, Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp of All Contractual Obligations

despite Poor Performance and Structural Failures, October 25, 2012.



SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                             Page 4
eliminate further construction work under the agreement with USACE. Instead, these officials said they were in
the process of developing a request for proposals for two local firms to complete the Sheberghan facility; but,
as of June 13, 2013, no contracts had been awarded.


SHEBERGHAN FACILITY IS BEING USED IN UNFINISHED CONDITION AND NOT
BEING MAINTAINED
The Sheberghan teacher training facility is being used even though the facility has not been completed. USAID
officials told us that they had instructed local Afghan
officials not to use the school until it was completed.  Photo 3 - Students Studying in an Unlit Classroom
However, when we discussed this with the faculty
members at the facility, they told us they repeatedly
asked USAID and USACE officials to complete the
teacher training facility but had not received a clear
response. Not knowing when the facility would be
completed, faculty members decided to move in and
start using it. During our inspection, we noticed that
because of the lack of electricity, the halls and
classrooms were dimly lit by natural light coming
through the windows (see photo 3). In addition, it
was cold and most faculty and students wore coats
because the heating system was not operational.
Further, because there was no running water, the
bathroom facilities were locked and not accessible
to faculty or students, requiring them to leave the
school area to find toilet facilities.
                                                             Source: SIGAR, November 28, 2012.

Although the Sheberghan facility is being occupied in
its current unfinished state, the U.S. government is still responsible for its operation and maintenance because
USAID has not transferred the facility to the Afghan government. The agreement between USAID and USACE
states that the Afghan government is not responsible for operation and maintenance until beneficial
occupancy is transferred to it. USACE-TAN and USAID officials told us that the transfer of the facility to the
Afghan government will not take place until facility construction has been completed and any outstanding
issues resolved. As a result, health and safety concerns associated with the lack of electricity, including the
substandard electrical wiring and unauthorized taps into the electrical system, as well as the lack of
operational water and sewage systems, may pose future costs to the U.S. government if the decision is made
to compensate Afghans for injuries sustained because of these substandard facilities.
During our site visit, faculty members also stated that the U.S. government would need to provide funds to fuel
the school’s 450 kilowatt electrical generator because the school has no fuel budget. These faculty members
estimated that the generator would run about 10 hours per day. Based on our calculations, fuel for operating
the generator 10 hours a day, at 75 percent capacity, would cost about $50,000 per month. 14 When we
discussed this with USACE-TAN officials, they stated that the coalition forces will not pay for fuel because this is
an educational facility which will be turned over to the Afghan government. Our review of the May 2008
agreement between USAID and USACE related to the construction of education facilities at institutes of higher
learning in Afghanistan shows that the Ministry of Higher Education is responsible for all operation and



14 SIGAR used $1.90 per liter for the cost of diesel fuel. Based on the manufacturer’s information, it would cost about

$123,329 per month to operate a 450 kilowatt generator, running at 75 percent capacity, 24 hours per day. Given the 10
hours per day the faculty estimated that the generator would be running, fuel costs would be about $50,000 per month
($1.90 per liter x 887 liters of fuel needed for 10 hours of operation per day x 30 days = $50,572).



SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                       Page 5
maintenance, which would include fuel for the generator, after the Afghan government takes beneficiary
occupancy of the facility.


CONCLUSION

More than 4 years after construction began, the Sheberghan teacher training facility remains incomplete. Its
history is one of broken promises and undelivered results. One contractor walked away from the project after
being paid $3.1 million despite poor performance and unresolved electrical issues. Another contractor was
dismissed for its inability to complete the project. However, in both cases, USACE-TAN inexplicably closed out
both contracts and released the contractors from further liability. This raises concerns because we have
previously reported instances in which USACE failed to hold its contractors accountable for accomplishing the
work they were paid to perform. SIGAR believes that USACE must take immediate action to hold contractors
accountable when they fail to deliver on their commitments.
Substandard wiring that does not conform to code and improper taps into the electrical system expose
occupants of the Sheberghan facility to potential electrocution and fire hazards. In addition, there may be other
problems that our inspection was unable to uncover because the lack of electricity at the site prevented us
from testing electrical, water, and sewage systems. The relative proximity between the facility’s sewage lines
and its water well may also result in future hazards to occupants’ health. Furthermore, contrary to USACE-TAN’s
plans, Afghans at the facility assume that the U.S. government will provide funding to fuel the facility’s
electrical generator—the facility’s sole source of power once the electrical wiring issues are resolved—even
after the facility is turned over to the Afghan government. As a result, whether the site will have electricity is
questionable. In our view, the Sheberghan teacher training facility does not serve as an example of a well-
planned or executed project whose operation and maintenance is sustainable following the departure of
coalition forces.


RECOMMENDATIONS

To ensure that the Sheberghan teacher training facility is operated and maintained to meet the needs of the
faculty and students, and to protect the U.S. government investment, we recommend that the Commanding
General, USACE, direct the Commander, USACE-TAN, to

    1. Determine, and report the following information to SIGAR within 90 days:

                 (a) Why USACE-TAN’s contractors, Mercury and Zafarkhaliq, were released from their
                     contractual obligations despite poor performance;
                 (b) Why contract close out files stated that Mercury and Zafarkhaliq completed all work and
                     all outstanding issues had been resolved despite unfinished construction and electrical
                     problems that remain to this day;
                 (c) Why USACE-TAN released Mercury from any outstanding claims, remediation, and
                     warranty items; and

                 (d) The identity of the USACE contracting officer(s) involved in the decision to pay the
                     contractor and release it of all contractual liability. After determining why the contractor
                     was paid and released of all liability before completing the project, determine what
                     disciplinary action is appropriate, if any, against the contracting officer(s) responsible for
                     making the decision.




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                   Page 6
In addition, to ensure project completion and to protect U.S. government interests, we recommend that the
USAID Mission Director for Afghanistan:

    2. Coordinate with USACE to review project documentation, and conduct a site inspection to determine
       whether the sanitary sewer lines were improperly placed in relation to the water well and pose a
       health risk to the faculty and students. If so, determine and take the appropriate actions required to
       remediate the situation.

    3. Take appropriate measures to minimize existing health and safety risks, including accidents that could
       arise from the faculty and students’ continued unauthorized use of the facility.
    4. Complete construction of the Sheberghan teacher training facility and expedite its official turnover to
       the Afghan government.

    5. Provide adequate oversight to ensure that the facility is properly completed before paying for
       contractor services.


AGENCY COMMENTS

We received comments on a draft of this report from USACE and USAID, which we incorporated into the final
report, as appropriate. USACE and USAID comments are reproduced in appendices III and IV, respectively.
In its comments, USACE noted that it would address the questions raised in recommendation 1 by conducting
further review of the circumstances associated with the close-out of the Mercury and Zafarkhaliq contracts and
provide the results to SIGAR by October 15, 2013. Upon completion of that review, we will decide whether to
further examine the circumstances surrounding the close-out of the Mercury and Zafarkhaliq contracts.
USACE concurred with recommendation 2 to determine whether the sanitary sewer lines were improperly
placed in relation to the water well and identify if remedies were needed. USACE noted that it had completed a
review of the sewer lines placement and determined that the well and septic tank have adequate separation.
Based on the review, USACE stated that no substantial impact to the water system would be expected under
normal operating circumstances. However, when we asked USACE officials to provide documentation of this
review, they indicated that they had only reviewed the design plans. This step is insufficient to address the
problems we identified in this report. Serial Letter C-0041, dated May 2, 2011, specifically stated that USACE
had concerns with the well and septic system “as installed,” and directed Mercury Development to submit a
proposed plan to protect the water well from potential sanitary sewer contamination no later than May 12,
2011. Our review of the project files indicates that the plan was never submitted and that the issue was not
satisfactorily resolved. As of March 2013, USACE-TAN officials indicated that this was still an open issue.
Further, because Mercury Development abandoned the project, we were not able to review “as-built” drawings.
As a result, we maintain that the only way to satisfactorily resolve this issue is to conduct a site inspection.
Because USAID terminated the Participating Agency Program Agreement with USACE, we have revised the
report to direct the recommendation to the USAID Mission Director for Afghanistan.
USACE acknowledged recommendation 3, but stated that it no longer has authority to conduct further work
because USAID terminated the Participating Agency Program Agreement. Accordingly, we have revised the
report to direct the recommendation to the USAID Mission Director for Afghanistan. USACE stated that it is
prepared to work with USAID at its request to develop and implement solutions to address deficiencies in the
project and to minimize risk.
USAID concurred with recommendation 4, noting that it has been working on a separate contract to complete
the project following the termination of the Participating Agency Program Agreement with USACE. USAID
estimated that the contract award would be made by the end of July 2013, and that the project would take
about 90 days to complete following the award. Upon completion of the project, USAID plans to inspect the
facility, require correction of punch list items by the contractor, and provide an implementation letter to the
Ministry of Higher Education to formally transfer the facilities to the Afghan government.



SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                Page 7
USAID also concurred with recommendation 5, noting that the new contract will be performance-based, with
the contractor paid for completion of specific project components. USAID further stated that it would assign
project oversight by a quality contracting officer’s representative and contract for third party quality assurance
and quality control.




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                  Page 8
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of SIGAR’s inspection of the Sheberghan teacher training facility in Jawzjan
province, Afghanistan. This represents one of a series of inspections of construction projects contracted by the
U.S. Army Corps of Engineers in the northern provinces of Afghanistan.
To determine whether the construction was completed in accordance with contract requirements and
applicable construction standards as well as whether the facilities are being used as intended and maintained,
we:
    •    reviewed contract documents, design submittals, and geotechnical reports to understand project
         requirements and contract specifications;
    •    interviewed U.S. and Afghan officials concerning operation and maintenance of the facility; and
    •    conducted a physical inspection and photographed the project site to observe the current status and
         the quality of construction.
Our inspection was limited because the facility did not have functioning electricity. Due to the lack of electricity,
we could not test the building’s water, lighting, heating and overhead fans, and sewage systems.
SIGAR conducted its inspection in Kabul, Afghanistan; the USACE-TAN Resident Office at Camp Spann; and the
Sheberghan teacher training facility from September 2012 through July 2013. We conducted a site visit on
November 28, 2012, and performed our work in accordance with the Quality Standards for Inspection and
Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency. The engineering
assessment was conducted by professional engineers in accordance with the National Society of Professional
Engineers’ Code of Ethics for Engineers. We did not rely on computer-processed data in conducting this
inspection. However, we considered the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. The inspection was conducted under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended; and in accordance with the Quality Standards
for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency.




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                    Page 9
APPENDIX II - SHEBERGHAN TEACHER TRAINING FACILITY FIRST AND SECOND
FLOOR PLANS

Figure 1 - Sheberghan Teacher Training Facility Layout




Source: SIGAR analysis of USACE design documents.




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility     Page 10
APPENDIX III - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS



                                             DEPARTM ENT OF THE ARMY
                                          UNITcLJ STATES AK M Y COKI'S 01' I'NG I Nt~ KS
                                                  TRANSATLANTIC DIVISION
                                                   255 FO RT COLLI ER ROAD
                                                 WINCHESlER, VIRGINIA 22603
                        Rt PL.\' TO
                        AITENTION 01'                                                      10 JUL Z013
            Internal Review Office




            \1r. John F. Sopko
            Special Inspector General for Afghanistan Reconstruc1ion
            2530 Crystal Drive,
            Arlington, Virginia 22202-3940

            Dear Mr. Sopko:

              Enclosed is U.S. Army Corps of Engineers (US ACE), Transatlantic Division response to
            SJGAR Draft Inspection Report 13-9, Sheberghan Teacher Training Facility: USACE Paid
            Contractors and Released Them from Contractual Obligations Before Construction Was
            Completed and Without Resolv ing Serious Health and Safety Hazards.

               My point of contact for this correspondence is Mr. George Sullivan, Chief, Internal Review at
                                                               .

                                                                     Sincerely,




                                                      jtf~1}4~E      COL, EN
                                                                     Deputy Commander

            Enclosure




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                                     Page 11
                                                             SIGAR
                                                             comment 1




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility               Page 12
                                                             SIGAR
                                                             comment 2




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility               Page 13
                                                             SIGAR
                                                             comment 3




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility           Page 14
                                                             SIGAR
                                                             comment 4




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility           Page 15
                   SIGAR’s Response to Comments from the U.S. Army Corps of Engineers
    1. USACE states that the improper taps into the electrical system identified by SIGAR were not on the
       projects when USACE controlled the facilities. However, at the time of our inspection in November
       2012, USACE was still implementing the project for USAID under the Participating Agency Program
       Agreement, which was not terminated until January 2013. In fact, our draft report noted that, during
       SIGAR’s inspection, the USACE resident engineer surmised that the improper tap to supply electricity
       to a power strip was likely due to a limited supply of electricity from the main generator.
    2. Technical correction made.
    3. When we followed up with USACE officials, they indicated that their review focused on the design
       plans. However, documentation we had reviewed in the project files showed that, in May 2011, USACE
       had concerns with the water well and septic systems “as installed” and directed Mercury Development
       to submit a proposed plan to protect the water well from potential sanitary sewer contamination.
       Based on our review of the project files, the plan was never submitted and the issue was never
       satisfactorily resolved. Because Mercury Development abandoned the project and we were not able to
       review “as-built” drawings, we maintain that the only way to satisfactorily resolve this issue is to
       conduct a site inspection. Because USAID has terminated the Participating Agency Program
       Agreement with USACE, we have revised the report to direct this recommendation to the USAID
       Mission Director for Afghanistan.
    4. We have revised the report to direct this recommendation to the USAID Mission Director for
       Afghanistan.




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                         Page 16
APPENDIX IV - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




              1S':
              w USAID    FROM THE AMERICAN PEOPlE




                   MEMORANDUM                                         July 10, 2013

                   TO:           John F. Sopko
                                 Special Inspector General for
                                 Afghanistan Reconstruction (SIGAR)

                   FROM'         Kathloon Campbell, Acting Doputy A,;,tant to the   Admm;srrat~
                   SUBJECT: Draft SJGAR Report titled, "Sheberghan Teacher Training
                            Facility: U.S. Army Corps of Engineers Paid Contractors and
                            Released Them from Contractual Obligations before Construction
                            Was Completed and Without Resolving Serious Health and
                            Safety Hazards". (SIGAR Inspection 13-9)

                   REFERENCE: SIGAR Transmittal email dated 06/26/2013

                   Thank you for providing USAID with the opportunity to review the subject
                   draft inspection report. Discussed below are our comments on the findings
                   and recommendations in the report.

                   USAID had already undertaken several actions on this program before SIGAR
                   provided USAID and USACE its corrective audit, including terminating
                   the agreement with USACE in January 2013 and beginning procurement of
                   new construction services to finish the electrical work on the three faculty
                   buildings.

                   To provide context, USAID entered into a Participating Agency Program
                   Agreement with the US Army Corps of Engineers (USACE) in 2008. Under
                   this agreement, USACE took on the responsibility for contracting, quality
                   assurance, and supervision of the construction of up to sixteen faculties
                   of higher education as part of a larger USAID Higher Education Program.
                   USACE was not to perform the construction activity but was to provide the
                   contract management for it. The agreement was subsequently descoped
                   to six faculties of higher education in 2010 and USAID bolstered USACE
                   quality assurance with our own quality assurance contractor, to ensure optimal
                   construction oversight.

                   As this report notes, after several problems with contractors- one of whom
                   left and whose successor was dismissed for non-performance -delayed the
                   completion of this program, USAID decided to terminate this agreement with




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                          Page 17
                   US ACE. USAID is now in the final stages of procurement for a contract to
                   complete the electrical work on the three remaining facilities. We expect that
                   this contract to be awarded by the end of July.


                   PART I: COMMENTS ON SIGAR'S FINDINGS

                   1. Summary page, third paragraph: "The U.S. government is still
                      responsible for operation and maintenance because USACE has not
                      transferred the facility to the Afghan government. "


                      USAID Response: US AID concurs. As this is a USATD funded project,
                      USAID is responsible for to transferring the facility to the Afghan
                      Government, not USACE. The Ministry of Higher Education is the line
                      ministry with authority for university programs.

                   2. Summary page, fifth paragraph: "The report also recommends that the
                      USAID Mission Director for Afghanistan (4) complete construction of the
                      Sheberghan teacher training facility and expedite its official turnover to
                      the Afghan government. "

                      USAID Response: US AID concurs; this is in line with what USAID
                      has been working on. Following the termination of the agreement with
                      USACE in January 2013, USAID has been preparing for a separate
                      contract to complete the work on this and two other facilities. We issued
                      a Request for Task Order Proposals (RFTOP) to a pool oflndefmite
                      Quantity Contractors (IQC) for this work in February 2013, and received
                      only one proposal which we evaluated in Apri12013. The proposal did
                      not comply with the requirements and was canceled.

                      USAID has reissued the RFTOP, and an award is expected by the end
                      of July 2013. Once an award is made, work will commence and take
                      approximately 90 days to complete. Upon completion, inspection of
                      the facilities, and correction of punch list items by the contractor, an
                      implementation letter will be provided to the Ministry of Higher Education
                      to formally transfer the facilities to the Afghan Government.




                                                          2




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                          Page 18
                   3. Summary page, fifth paragraph: "and (5) provide adequate oversight to
                      ensure that the facility is properly completed before paying for contractor
                      services.

                      USAID Response: USAID concurs. As is the case with aU our
                      construction awards, USAID will assign a Contracting Officer's
                      Representative (COR) to monitor and evaluate progress on the project
                      and will contract for quality assurance (QA) services to provide on-site
                      daily monitoring of activities and reporting until the project is completed.
                      All systems, including electrical, sewerage, water, and mechanical, will
                      be tested to ensure that all are fully operational. USAID will ensure the
                      terms and conditions set forth are enforced and payment made only upon
                      completion of all activities outlined in the statement of work.

                   4. Page 5, second paragraph: "Although the Sheberghan facility is being
                      occupied in its current unfinished state, the U.S. government is still
                      responsible for its operation and maintenance because USAGE has not yet
                      transferred the facility to the Afghan government. "

                      USAID Response: See comment one. As this is a USAID-funded project,
                      USAID will transfer the facility to the Afghan Government, not USACE.

                   PART II: COMMENTS ON SIGAR'S RECOMMENDATIONS

                  The report recommends that the USAID Mission Director for Afghanistan:

                      4) Complete construction ofthe Sheberghan teacher training facility and
                         expedite its official turnover to the Afghan government.

                         USAID Comments: USAID concurs with the recommendation. Upon
                         termination of the USACE agreement in January 2013, USAID has been
                         working on a separate contract for the completion of this work. We
                         expect an award to be made by the end of July.



                      5) Provide adequate oversight to ensure that the facility is properly
                         completed before paying for contractor services.


                         USAID Comments: USAID concurs with the recommendation, as
                         it is entirely consistent with USAID standard implementation and



                                                          3




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                           Page 19
                         management practice. Once a new contract is awarded, USAID will
                         assign project oversight by a qualified COR and will contract third party
                         quality assurance and quality control. The contract will be performance
                         based; the contractor will be paid for completion of specific proj ect
                         components.




                         cc: CCDEA




                                                          4




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                                           Page 20
APPENDIX V - ACKNOWLEDGEMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Brian M. Flynn, Senior Audit Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William “Lee” Dillingham, Professional Engineer




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility   Page 21
                                    This inspection report was conducted
                                      under project code SIGAR-I-006D.




SIGAR Inspection 13-9/Sheberghan Teacher Training Facility                 Page 22
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
